Audit Report




OIG-08-031

FOREIGN INVESTMENTS: Review of Treasury’s Failure to
Provide Congress Required Quadrennial Reports in 1998 and
2002 on Foreign Acquisitions and Industrial Espionage Activity
Involving U.S. Critical Technology Companies

April 21, 2008




Office of
Inspector General
Department of the Treasury
Contents


Audit Report ..................................................................................................1

    Results in Brief...............................................................................................2

    Background ……………………………………………………………………………………..4

    Finding and Recommendations

        Treasury Officials Were Not Aware of the Assigned Responsibility to File the
        Required Reports .......................................................................................6

        Recommendations....................................................................................15

Appendices

    Appendix     1:      Objective, Scope, and Methodology . …………………………………18
    Appendix     2:      Timeline of Significant Events ............... ……………………………20
    Appendix     3:      Management Response ..........................................................25
    Appendix     4:      Major Contributors to This Report ............................................27
    Appendix     5:      Report Distribution..…………………………………………………….. 28

Abbreviations

    CFIUS                Committee on Foreign Investments in the United States
    CIA                  Central Intelligence Agency
    CFR                  Code of Federal Regulations
    DPA                  Defense Production Act of 1950
    EO                   Executive Order
    FINSA                Foreign Investment and National Security Act of 2007
    GAO                  Government Accountability Office
    NEC                  National Economic Council
    NSC                  National Security Council
    OIG                  Treasury Office of Inspector General
    Pub. L. No.          Public Law number
    U.S.C.               United States Code




                         Review of Treasury’s Failure to Provide Congress Required                           Page i
                         Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
                         and Industrial Espionage Activity Involving U.S. Critical
                         Technology Companies (OIG-08-031)
         This page intentionally left blank.




Review of Treasury’s Failure to Provide Congress Required      Page ii
Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
and Industrial Espionage Activity Involving U.S. Critical
Technology Companies (OIG-08-031)
                                                                                     Audit
OIG
The Department of the Treasury
                                                                                     Report
Office of Inspector General




                      April 21, 2008

                      Mr. David H. McCormick
                      Under Secretary for International Affairs

                      This report presents information we obtained concerning why the
                      Department of the Treasury did not provide quadrennial reports to
                      Congress in 1998 and 2002 in accordance with section 721(k) of
                      the Defense Production Act of 1950, as amended. The quadrennial
                      reports were intended to evaluate whether (1) there is credible
                      evidence of a coordinated strategy by one or more countries or
                      companies to acquire U.S. companies involved in research,
                      development, or production of critical technologies for which the
                      United States is a leading producer; and (2) there are industrial
                      espionage activities directed or directly assisted by foreign
                      governments against private U.S. companies aimed at obtaining
                      commercial secrets related to critical technologies. In 1994, a
                      Presidential Executive Order (EO) assigned responsibility to prepare
                      these reports to the Secretary of the Treasury, in cooperation with
                      other Executive branch agencies.

                      We were required by the Foreign Investment and National Security
                      Act of 20071 (FINSA) to determine the facts and circumstances
                      concerning each failure of the Department of the Treasury to make
                      any report to Congress that was required under section 721(k) of
                      the Defense Production Act of 1950, as in effect on the day before
                      the enactment of FINSA. We performed our fieldwork from
                      November 2007 to March 2008 in accordance with generally

1
  50 U.S.C. app. § 2061. Pub. L. No. 110-049. The act also required that we submit the report on our
review to the appropriate committees by April 21, 2008.



                      Review of Treasury’s Failure to Provide Congress Required                Page 1
                      Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
                      and Industrial Espionage Activity Involving U.S. Critical
                      Technology Companies (OIG-08-031)
                      accepted government auditing standards. Appendix 1 contains a
                      description of our audit objective, scope, and methodology.

Results in Brief
                      Section 721(k) of the Defense Production Act of 1950, which was
                      enacted on October 28, 1992, required that quadrennial reports on
                      foreign acquisition strategies and industrial espionage activities be
                      provided to Congress beginning not later than one year after the
                      date of enactment of this section. Since the mandate’s
                      establishment, however, only two reports have been produced—
                      one in 1994 and one in 2006. The 1994 report was prepared by an
                      interagency working group under the auspices of Treasury. It was
                      transmitted to Congress by the National Economic Council (NEC),
                      even though the President had assigned reporting responsibility to
                      Treasury 2 months earlier. The report relied heavily on a
                      commercial database on foreign investment to which the Central
                      Intelligence Agency (CIA) had subscribed. The 2006 report, which
                      covered the 12-year period from 1994-2006, was also prepared by
                      an interagency group under Treasury’s direction, and transmitted
                      by Treasury to Congress. Once again, the CIA’s subscription to a
                      commercial database was a critical source of the needed
                      information. The reporting lapse was raised during congressional
                      hearings on foreign investment in the United States held in 2005,
                      following inquiries from the Congressional Research Service and
                      Government Accountability Office (GAO) which disclosed
                      Treasury’s failure to file reports in 1998 and 2002.2

                      Treasury officials from the Office of International Affairs, who were
                      assigned the quadrennial reporting responsibility, said they were
                      unaware that the President had transferred these reporting
                      responsibilities to Treasury in 1994. The officials explained that
                      they had attempted to obtain information for a second report in
                      1998, even though they did not believe that Treasury had any
                      formal responsibility to prepare the report. However, Treasury
                      officials learned that the CIA no longer subscribed to the

2
 Defense Trade: National Security Reviews of Foreign Acquisitions of U.S. Companies Could Be
Improved, GAO-07-661T (Mar. 23, 2007).

                      Review of Treasury’s Failure to Provide Congress Required                Page 2
                      Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
                      and Industrial Espionage Activity Involving U.S. Critical
                      Technology Companies (OIG-08-031)
commercial database that had been used for the 1994 report.
Moreover, the espionage section of the quadrennial report was
already being supplied to Congress in a report provided by the
National Counterintelligence Executive’s Office.

These findings were contained in a draft memorandum from
Treasury to the National Security Council/National Economic
Council (NSC/NEC) [since we only could locate a draft, we could
not verify whether this memorandum was actually sent to the
NSC/NEC]. The draft memorandum also listed potential options for
meeting the reporting requirement, including requesting that
Congress waive the requirement in view of not having access to
the foreign acquisition data and the existing reporting on industrial
espionage.

Treasury did not pursue the reporting matter in 2002. In July
2007, the President signed FINSA into law, which requires annual
reporting by Treasury on foreign investment in the United States
and related national security concerns.

We found that controls did not exist within Treasury to ensure that
officials were aware of the 1994 EO that assigned the quadrennial
reporting requirement to Treasury. As a result of the absence of
such controls, Treasury did not exercise appropriate oversight of
their respective offices to ensure compliance with the reporting
requirement. In late fiscal year 2007, to ensure that Treasury
meets its mandates, Treasury’s Executive Secretary began
maintaining a master list of all departmental-mandated tasks,
including the requirement to report information annually on foreign
investments in the United States.

We are recommending that the Under Secretary for International
Affairs ensures that (1) internal guidance for implementing FINSA is
established and includes procedures for preparing and issuing the
now annual report to Congress and (2) Treasury, consistent with
the Secretary of the Treasury’s authority under the EO that
implements FINSA, designates participating agencies and specifies
their responsibilities in preparing the annual report.


Review of Treasury’s Failure to Provide Congress Required       Page 3
Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
and Industrial Espionage Activity Involving U.S. Critical
Technology Companies (OIG-08-031)
             Treasury concurred with our recommendations. The Assistant
             Secretary for International Affairs said that Treasury is taking the
             necessary steps to make the recommendations effective. Treasury
             has begun preparation of the 2008 annual report, and the
             procedures established for this first annual report will guide the
             development of internal Committee on Foreign Investments in the
             United States guidelines for implementing FINSA, which Treasury
             intends to develop in consultation with other agencies following the
             publication of final regulations that implement FINSA. The
             Assistant Secretary also said that in accordance with the EO that
             implements FINSA dated January 23, 2008, Treasury will
             designate the agencies that will participate in the preparation of the
             annual report and work closely with them to define their
             responsibilities to ensure timely submission of the 2008 annual
             report. Treasury did not provide estimated completion dates for
             developing internal guidance that implements FINSA and for
             designating agencies and defining their responsibilities for the
             annual report. The Office of International Affairs will need to
             establish these dates in the Department’s Joint Audit Management
             Enterprise System so that the status of these corrective actions
             can be monitored.

             In accordance with FINSA, we are providing copies of this report to
             the Committee on Foreign Relations, the Committee on Banking,
             Housing, and Urban Affairs, the Committee on Commerce, Science,
             and Transportation, and Committee on Finance of the Senate; and
             the Committee on Foreign Affairs, the Committee on Financial
             Services, and the Committee on Energy and Commerce of the
             House of Representatives.

Background
             Quadrennial Reporting Requirements

             The Committee on Foreign Investments in the United States
             (CFIUS), established in 1975 by a Presidential EO and by statute
             under FINSA, is an interagency committee chaired by the Secretary



             Review of Treasury’s Failure to Provide Congress Required       Page 4
             Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
             and Industrial Espionage Activity Involving U.S. Critical
             Technology Companies (OIG-08-031)
                       of the Treasury.3 Through the Director of Investment Security in its
                       Office of International Affairs, Treasury serves as secretariat for
                       CFIUS, receiving and circulating notices to CFIUS agencies and
                       coordinating reviews.4

                       CFIUS conducts national security reviews of foreign acquisitions of
                       U.S. companies pursuant to section 721 of the Defense Production
                       Act of 1950.5 Section 721 authorizes the President to investigate
                       the impact of foreign acquisitions of U.S. companies on national
                       security and, if necessary, to suspend or prohibit acquisitions that
                       might threaten national security. The President, through an EO,
                       assigned the review and investigation authorities to CFIUS.6
                       Pursuant to the EO, CFIUS receives notices of transactions
                       potentially subject to section 721 and conducts interagency
                       reviews and investigations to identify potential national security
                       issues.

                       As part of the 1992 amendments to section 721, Congress added
                       subsection (k) to assist with its oversight responsibilities.7 The
                       subsection requires that the President and any agencies that the
                       President designates complete and furnish to Congress, not later
                       than 1 year after the date of enactment of the subsection and
                       every 4 years thereafter, a report which evaluates the following:

                       1. Whether there is credible evidence of a coordinated strategy by
                          one or more countries or companies to acquire U.S. companies




3
  EO No. 11,858, 40 Federal Register 20,263 (May 7, 1975). On January 23, 2008, this EO was
amended to implement FINSA.
4
  Treasury’s Office of International Affairs protects and supports U.S. economic prosperity by
encouraging financial stability and sound economic policies abroad. International Affairs performs
surveillance and conducts analysis of global economic and financial developments. In addition, it
engages with financial market participants, foreign governments, and international financial institutions
and participates in multilateral fora to develop and promote good policies.
5
  50 U.S.C. app. § 2170 (amended) (Pub. L. No. 100-418).
6
  EO 12,661, amending EO 11,858, 54 CFR 779 (Dec. 27, 1988).
7
  This provision was formerly codified at 50 U.S.C. app. § 2170(k) (Pub. L. No. 102-558). The
requirement to submit annual reports to Congress is now at 50 U.S.C. app. § 2170(m)(3).

                       Review of Treasury’s Failure to Provide Congress Required                    Page 5
                       Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
                       and Industrial Espionage Activity Involving U.S. Critical
                       Technology Companies (OIG-08-031)
                           involved in research, development, or production of critical
                           technologies8 for which the United States is a leading producer

                       2. Whether there are industrial espionage activities directed or
                          directly assisted by foreign governments against private U.S.
                          companies aimed at obtaining commercial secrets related to
                          critical technologies

                       This report was known as the quadrennial report.

                       On July 26, 2007, FINSA was enacted, strengthening the process
                       by which CFIUS reviews foreign acquisitions of U.S. companies for
                       national security concerns.9 The Act, in part, increased oversight
                       by Congress by requiring CFIUS to provide an annual report to
                       Congress. It also requires that the former quadrennial report be
                       incorporated into this annual report.


Finding and Recommendations

Finding                Treasury Officials Were Not Aware of the Assigned
                       Responsibility to File the Required Reports

                       Treasury did not produce quadrennial reports in 1998 and 2002 on
                       foreign acquisition strategies that could harm national security and
                       industrial espionage activities directed against U.S. companies, as
                       required under section 721(k) of the Defense Production Act of
                       1950, as amended. Since the 1992 reporting mandate, only two
                       reports, in 1994 and in 2006, have been provided to Congress.
                       Treasury officials said they were unaware of the 1994 EO that
                       assigned the reporting authority and responsibility to the
                       Department. In addition, Treasury officials said that intelligence
                       data needed for each report were not available from the CIA in
                       1998 and 2002. The 1994 report was prepared by an interagency
8
  For the purposes of former subsection (k), the term “critical technologies” was defined as technologies
identified under title VI of the National Science and Technology Policy, Organization, and Priorities Act
of 1976 or other critical technology, critical components, or critical technology items essential to
national defense identified pursuant to this section. 50 U.S.C. app. § 2170(k)(2).
9
  50 U.S.C. app. § 2061. Pub. L. No. 110-049.

                       Review of Treasury’s Failure to Provide Congress Required                  Page 6
                       Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
                       and Industrial Espionage Activity Involving U.S. Critical
                       Technology Companies (OIG-08-031)
                      working group under Treasury auspices, and was transmitted to
                      Congress by NEC, 2 months after the EO assigned responsibility to
                      Treasury.

                      In 2007, Treasury strengthened controls over the filing of the
                      reports to Congress. Treasury’s Executive Secretary, who reports
                      to the Chief of Staff, now tracks all department-mandated tasks,
                      including CFIUS reporting.

                      Quadrennial Report Was Produced in 1994 but Not in 1998 and
                      2002

                      The President initially assigned the preparation of the first
                      quadrennial report to the NEC in 1994. The NEC in turn asked
                      Treasury to chair a working group to oversee preparation of the
                      report. The working group consisted of representatives from the
                      Departments of State, Defense, Commerce, and Justice; the Office
                      of Management and Budget; the Office of the U.S. Trade
                      Representative; the Council of Economic Advisors; the Office of
                      Science and Technology Policy; the CIA; the Federal Bureau of
                      Investigation; NSC; and NEC. NEC transmitted the report to
                      Congress in August 1994.

                      Just 2 months before NEC transmitted the 1994 report, the
                      President issued a comprehensive EO on the Defense Production
                      Act, which assigned to Treasury, in cooperation with several
                      others, responsibility for completing and furnishing quadrennial
                      reports10 in 1994 and every 4 years thereafter. Treasury, however,
                      did not produce the required reports in either 1998 or 2002.

                      Officials in Treasury’s Office of Investment Security, within the
                      Office of International Affairs, offered explanations for why reports
                      were not produced for those years.



10
   EO 12,919, 59 CFR 108 (June 3, 1994). The others identified in the EO who were to cooperate with
Treasury were the Department of State, the Department of Defense, the Department of Commerce, the
Department of Energy, the Department of Agriculture, the Attorney General, and the Director of Central
Intelligence.

                      Review of Treasury’s Failure to Provide Congress Required                 Page 7
                      Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
                      and Industrial Espionage Activity Involving U.S. Critical
                      Technology Companies (OIG-08-031)
                           Treasury Officials Were Not Aware of the Delegated Reporting
                           Responsibility

                           The Deputy Assistant Secretary for Investment Security
                           explained that Treasury was unaware that the President had
                           assigned to Treasury responsibility for completing and furnishing
                           quadrennial reports. He also said that other Executive branch
                           agencies with consultative responsibilities were similarly not
                           aware of this delegation.11

                           A staff attorney in the Office of the Assistant General Counsel
                           for International Affairs, who was present during the 1998 and
                           2002 reporting periods, told us that Treasury knew about the
                           reporting requirement but was not aware of the 1994
                           designation making Treasury responsible.

                           The reporting lapse became evident in 2005, when GAO issued
                           a report concerning CFIUS, and when congressional hearings
                           were held that discussed the lack of reports. Unaware of the
                           designation, Treasury’s Office of the General Counsel drafted a
                           memorandum for the President to sign, to assign responsibility
                           for the 2006 report to the Secretary of the Treasury.12 The
                           President signed the memorandum on December 29, 2006. This
                           memorandum, however, was not necessary because the
                           assignment had already been accomplished via the 1994 EO.

                           Data on Foreign Investments Were No Longer Available

                           The methodology employed to prepare the 1994 report involved
                           an analysis of foreign acquisitions of U.S. companies to
                           determine whether any patterns of activity might suggest the


11
   The Deputy Assistant Secretary for Investment Security has held the position since June 2006;
accordingly, he was not with Treasury during the 1998 and 2002 reporting periods. The Deputy
Assistant Secretary told us that he relied on the Office of International Affairs’ Senior General Counsel,
International Economist, and Director of Investment Security, all of whom were with Treasury during
the aforementioned reporting periods, to provide all pertinent documentation.
12
   Memorandum of December 29, 2006—Assignment of Function Under Section 721(k) of the Defense
Production Act of 1950, 58 Federal Register No. 172 (Jan. 5, 2007).

                       Review of Treasury’s Failure to Provide Congress Required                     Page 8
                       Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
                       and Industrial Espionage Activity Involving U.S. Critical
                       Technology Companies (OIG-08-031)
                           existence of a strategy. Treasury attempted to obtain
                           information for the report in 1998.

                           Treasury’s Assistant Secretary for International Affairs drafted a
                           memorandum to a former Special Assistant to the President and
                           Senior Director for International Trade and Investment,
                           NSC/NEC, on the preparation of the second quadrennial report.
                           In the memorandum, the Assistant Secretary notified the
                           Special Assistant that the quadrennial report was due in 1998
                           and that the President, not Treasury, was assigned the
                           responsibility for quadrennial reporting. We could not determine
                           if this memorandum was actually transmitted, as only a draft
                           was provided to us. We discussed the memorandum with the
                           former Special Assistant to the President, who had no
                           recollection of the memorandum, of any direction provided to
                           Treasury regarding preparation of the quadrennial report, or of
                           why it was allowed to go unfiled.

                           Officials in the Office of Investment Security explained,
                           however, that the merger and acquisition data used for the
                           1994 report was no longer available because the CIA did not
                           renew its contract for the commercial database that had been
                           used for the prior report. The Office of Investment Security did
                           provide some documentation indicating that Treasury tried to
                           collect information from the CIA. In July 1998, an international
                           economist from Treasury’s Office of International Affairs wrote
                           to the CIA asking the agency to provide information that could
                           be made available to Treasury for the quadrennial report and to
                           identify individuals who could participate in drafting the report.13
                           Treasury’s files provided for our review did not contain a reply
                           from the CIA. We discussed the Treasury request with the
                           official at the CIA to whom the letter was addressed. The
                           official stated that a colleague drafted a memorandum in
                           response to Treasury stating that the CIA could not help
                           because it no longer subscribed to the database on foreign
                           mergers and acquisitions. The official stated that he had
                           forwarded the written response to his supervisor but was not

13
     We were provided an unsigned copy of this memorandum.

                       Review of Treasury’s Failure to Provide Congress Required         Page 9
                       Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
                       and Industrial Espionage Activity Involving U.S. Critical
                       Technology Companies (OIG-08-031)
                            sure if it was ultimately sent to Treasury. The memorandum
                            that the CIA provided to us was a copy of a draft, and Treasury
                            officials could not recall whether they had received this
                            correspondence.

                            In the 1998 draft memorandum to the former Special Assistant
                            to the President, Treasury’s Assistant Secretary for International
                            Affairs wrote that Treasury had surveyed the agencies that had
                            contributed most of the information for the 1994 report
                            (Commerce and the CIA) to assess the availability of
                            information to update the quadrennial report in 1998 and had
                            found that the information was no longer available for the
                            report. According to the Assistant Secretary, the CIA database
                            provided comprehensive data used to prepare the 1994 report.
                            Well before 1998, however, the CIA had cancelled the database
                            contract. According to the 1998 memorandum, Commerce had,
                            to a lesser extent, supplied data for the report. However, those
                            data were no longer available for this purpose because the
                            program Commerce had used to collect publicly available
                            information on particular foreign direct investments by industry
                            sectors was discontinued in 1995.

                        Information on Foreign Industrial Espionage Was Provided to
                        Congress in Other Reports

                        The second component of the report required under section 721(k)
                        of the Defense Production Act concerns industrial espionage
                        activities directed or directly assisted by foreign governments
                        against private U.S. companies aimed at obtaining commercial
                        secrets related to critical technologies. Regarding this component,
                        the Deputy Assistant Secretary for Investment Security told us that
                        the reporting requirement was satisfied through the Foreign
                        Economic Collection and Industrial Espionage report. This report is
                        submitted annually by the Office of the National
                        Counterintelligence Executive, in compliance with the Intelligence
                        Authorization Act for Fiscal Year 1995,14 which requires that the
                        President provide Congress with updated information on the threat

14
     50 U.S.C. app. § 2170(b) (Pub. L. No. 103-359).

                        Review of Treasury’s Failure to Provide Congress Required      Page 10
                        Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
                        and Industrial Espionage Activity Involving U.S. Critical
                        Technology Companies (OIG-08-031)
to U.S. industry from foreign economic collection and industrial
espionage. We noted that the report for fiscal year 2005 issued in
August 2006, the latest available on the Office of the National
Counterintelligence Executive website, states that the information
provided in the report also satisfies the requirements stipulated in
the Defense Production Act of 1950, as amended, that the
President provide quadrennial reports on whether foreign
governments sponsor industrial espionage activities to obtain U.S.
critical technology assets. Prior annual reports did not contain a
similar statement that the reports satisfied this requirement in the
act.

In the previously mentioned 1998 draft memorandum to the former
Special Assistant to the President, the Assistant Secretary for
International Affairs wrote that the information in the 1994 report
was already being provided to Congress in the espionage reports
prepared by the Office of the National Counterintelligence
Executive. As we discussed earlier, the former Special Assistant to
the President had no recollection of this memorandum.

Although annual espionage reports were prepared by Office of the
National Counterintelligence Executive since 1995, in 1998 and
2002, Treasury was not relieved of the section 721(k) reporting
requirement. It was still incumbent upon Treasury to report such
information to Congress or, at a minimum, inform the Congress
that the information was provided in other reports. As mentioned
previously, this issue was discussed in the draft 1998
memorandum from Treasury to the NSC/NEC.

Renewed Attention to CFIUS in 2005 Led to Production of 2006
Report

Inquiries from GAO and the Congressional Research Service,
congressional hearings, and publicity concerning the foreign
acquisition of a U.S. company in 2005 appears to have renewed
interest in the report required under section 721(k) of the Defense
Production Act and led to Treasury’s 2006 filing. During that time,
a Chinese government owned company was trying to acquire a
U.S. oil company, and the United States–China Economic and

Review of Treasury’s Failure to Provide Congress Required      Page 11
Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
and Industrial Espionage Activity Involving U.S. Critical
Technology Companies (OIG-08-031)
                       Security Review Commission15 raised the issue of the missing
                       reports.

                       In June 2005, the China National Offshore Oil Corporation
                       announced its intentions to acquire U.S. energy company Unocal.
                       Although the bid by the China National Offshore Oil Corporation
                       was eventually withdrawn, it resulted in renewed focus on the
                       federal government’s review process for acquisitions of U.S.
                       companies by foreign countries or companies, especially foreign
                       companies located within or controlled by countries whose
                       governments might not be sympathetic to U.S. security interests.

                       The Senate Committee on Banking, Housing, and Urban Affairs
                       held a hearing starting on October 6 and continuing on October 20,
                       2005, on the implementation of section 721 by CFIUS. At the
                       time, there was a great deal of congressional interest because of a
                       GAO report that found the government’s process for reviewing
                       foreign investments could be improved.16 The United States-China
                       Economic and Security Review Commission raised the issue of the
                       missing reports in the hearing. Treasury’s Deputy Secretary
                       confirmed in his written testimony that the Administration failed to
                       produce quadrennial reports and that the Administration was
                       working toward producing a report in 2006.

                       In January 2006, Dubai Ports World, a port operator owned by the
                       government of the Emirate of Dubai, announced plans to acquire
                       P&O Ports, a United Kingdom global port terminal operator with
                       operations at a number of U.S. maritime ports. Following the
                       acquisition, Dubai Port World later divested its interest in U.S. port
                       terminal operations. This acquisition, however, brought additional
                       attention to the federal government’s national security review
                       process for acquisitions of U.S. companies by foreign government
                       owned companies.

15
   The United States-China Economic and Security Review Commission was established in October 2000
to monitor, investigate, and submit to Congress an annual report on the national security implications of
the trade and economic relationship between the United States and the Peoples’ Republic of China, and
to provide recommendations to Congress for legislative and administrative action.
16
    GAO, Defense Trade: Enhancements to the Implementation of Exon-Florio Could Strengthen the
Law’s Effectiveness, GAO-05-686 (Sept. 28, 2005).

                       Review of Treasury’s Failure to Provide Congress Required                  Page 12
                       Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
                       and Industrial Espionage Activity Involving U.S. Critical
                       Technology Companies (OIG-08-031)
                       The Administration became aware of the long lapse in producing
                       the quadrennial report in 2005 and worked to produce an in-depth
                       report for Congress in 2006. On January 25, 2006, Treasury’s
                       Deputy Secretary wrote to the Director of National Intelligence that
                       the quadrennial report had not been prepared since 1994, and
                       requested assistance in preparing the 2006 report. We asked the
                       Office of Investment Security what prompted this letter. Treasury’s
                       Senior General Counsel for International Affairs told us that that a
                       September 2005 GAO report and October 2005 GAO testimony
                       related to implementation of Exon-Florio,17 including the role of
                       CFIUS, brought Treasury’s failure to produce the quadrennial report
                       to the attention of Congress.18 The Senior General Counsel told us
                       that 2005 was the first time anyone had asked about the missing
                       quadrennial reports.

                       Documentation provided to us by the Office of Investment Security
                       revealed that the Congressional Research Service19 also started to
                       inquire about CFIUS reporting during mid-2005. In a July 11, 2005,
                       e-mail, the Director of Investment Security sent the Congressional
                       Research Service background information on the quadrennial
                       report. We discussed the e-mail with a Congressional Research
                       Service specialist in International Trade and Finance, Foreign
                       Affairs, Defense, and Trade Division, who told us that questions for
                       the Director of Investment Security were likely based on requests
                       from a Congressional committee or member of Congress.




17
   The Exon-Florio amendment to the DPA of 1950 added Section 721, which authorized the President
to investigate the impact of foreign acquisitions of U.S. companies on national security and to suspend
or prohibit acquisitions that might threaten national security. 50 U.S.C. app. § 2170 (amended) (Pub. L.
No. 100-418). In 2007, FINSA amended Section 721 to formally establish CFIUS and its membership
by statutory authority. FINSA also added new requirements to Section 721 to strengthen the process
by which acquisitions are reviewed and investigated for national security concerns, and increasing
congressional oversight of CFIUS activities. 50 U.S.C. app. § 2061 (Pub. L. No. 110-049).
18
   GAO, Defense Trade: Implementation of Exon-Florio, GAO-06-135T, (Oct. 6, 2005).
19
   The Congressional Research Service serves congressional committees and members of Congress, and
assists at every stage of the legislative process — from the early considerations that precede bill
drafting, through committee hearings and floor debate, to the oversight of enacted laws and various
agency activities.

                       Review of Treasury’s Failure to Provide Congress Required                 Page 13
                       Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
                       and Industrial Espionage Activity Involving U.S. Critical
                       Technology Companies (OIG-08-031)
                         On January 8, 2007, Treasury transmitted to Congress a report to
                         fulfill the reporting requirements of section 721(k) of the Defense
                         Production Act. The classified report was titled Report on Whether
                         Foreign Governments or Companies Have a Coordinated Strategy
                         to Acquire U.S. Critical Technology Companies and Whether
                         Foreign Governments Use Espionage Activities to Obtain
                         Commercial U.S. Critical Technology Companies and Whether
                         Foreign Governments Use Espionage Activities to Obtain
                         Commercial U.S. Critical Technology Secrets.

                         Treasury’s Office of Investment Security provided us with the
                         unclassified version of the report. The scope of the report covers
                         the 12-year period from the end of the previous report, October 1,
                         1993, through December 31, 2005. The report states that a
                         working group was established to assist with the report, consisting
                         of officials from the Departments of the Treasury, Commerce,
                         Defense, Justice, and State; Office of the Director of National
                         Intelligence; and Executive Office of the President. According to
                         the Deputy Assistant Secretary for Investment Security, the CIA
                         helped prepare many parts of the report by contributing information
                         about foreign mergers and acquisitions from a newly acquired data
                         source.

                         Controls Have Been Strengthened to Ensure Completion of
                         Congressionally Mandated Tasks

                         OMB Circular A-123 requires that general management control
                         standards be established and followed to comply with applicable
                         law and regulations.20 Treasury did not have controls in place to
                         ensure that mandated reports were produced, as evidenced by
                         Treasury’s failure to note that the President had assigned the
                         quadrennial reporting requirement to Treasury in EO 12,919.

                         Treasury’s Executive Secretary, who reports to the Secretary of
                         the Treasury’s Chief of Staff, told us that Treasury now maintains
                         a master control list of all department-related congressionally
                         mandated tasks. She said the control list has been in place since

20
     OMB Circular A-123, “Management’s Responsibility for Internal Control” (revised Dec. 21, 2004).

                         Review of Treasury’s Failure to Provide Congress Required               Page 14
                         Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
                         and Industrial Espionage Activity Involving U.S. Critical
                         Technology Companies (OIG-08-031)
                      late fiscal year 2007 and includes departmental CFIUS reporting
                      requirements. The Executive Secretary provided us with a copy of
                      the standard operating procedures and the master control list for
                      the Office of International Affairs. As of January 25, 2008, the
                      CFIUS reporting requirement was included on this master control
                      list. According to Treasury’s standard operating procedures, the
                      Office of Legislative Affairs is responsible for maintaining the list.

                      In addition, the Deputy Assistant Secretary for Investment Security
                      stated that the office was in the process of drafting regulations to
                      implement FINSA, and that internal guidance based on those
                      regulations would follow.21 The Deputy Assistant Secretary also
                      said that establishment of memoranda of understanding would be
                      considered between Treasury and the other agencies that
                      contribute information for the report to clearly define the
                      responsibilities of all parties.

                      Recommendations

                      We recommend that the Under Secretary of International Affairs do
                      the following:

                      1. Ensure that internal CFIUS guidance for implementing FINSA is
                         established and includes procedures for preparing and issuing
                         the annual report to Congress on foreign investment in critical
                         technology companies and industrial espionage activities.

                          Management Response

                          Treasury has begun preparation of the 2008 annual report, and
                          the procedures established for this first annual report will guide
                          the development of internal CFIUS guidelines for implementing
                          FINSA, which Treasury intends to develop in consultation with
                          other agencies following the publication of final regulations that
                          implement FINSA.
21
  FINSA required issuance of implementing regulations by April 2008. The October 2007 Federal
Register (Vol. 72, No. 196) gave notice for written comments and a public meeting to obtain views on
the regulatory development.


                      Review of Treasury’s Failure to Provide Congress Required               Page 15
                      Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
                      and Industrial Espionage Activity Involving U.S. Critical
                      Technology Companies (OIG-08-031)
    OIG Comments

    Treasury’s plan to develop internal CFIUS guidelines in
    consultation with other agencies, following the publication of
    final regulations that implement FINSA, satisfies the intent of
    our recommendation. Although the response lacks a completion
    date, management will need to establish a target date for
    completing this action in the Joint Audit Management Enterprise
    System.

2. Ensure that, consistent with the Secretary of the Treasury’s
   responsibilities as Chairperson of CFIUS under the Executive
   Order that implements FINSA, Treasury designates participating
   agencies and specifies their responsibilities in preparing the
   annual report.

    Management Response

    In accordance with the January 23, 2008, EO that implements
    FINSA, Treasury will designate the agencies that will participate
    in the preparation of the annual report and work closely with
    them to define their responsibilities to ensure timely submission
    of the 2008 annual report.

    OIG Comments

    Treasury’s intention to designate the agencies that will
    participate in the preparation of the annual report, and to define
    their responsibilities to ensure timely submission of the report,
    satisfies the intent of our recommendation. Although the
    response lacks a completion date, management will need to
    establish a target date for completing this action in the Joint
    Audit Management Enterprise System.




Review of Treasury’s Failure to Provide Congress Required       Page 16
Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
and Industrial Espionage Activity Involving U.S. Critical
Technology Companies (OIG-08-031)
                                 ******

We would like to extend our appreciation to Treasury personnel for
the cooperation and courtesies extended to our staff during this
review. If you have any questions, please contact me at
(202) 927-5400 or Donald Benson, Audit Director, at
(617) 223-8638.


/s/
Marla A. Freedman
Assistant Inspector General for Audit




Review of Treasury’s Failure to Provide Congress Required      Page 17
Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
and Industrial Espionage Activity Involving U.S. Critical
Technology Companies (OIG-08-031)
Appendix 1
Objective, Scope, and Methodology




The objective of our audit was to determine the facts and
circumstances concerning the Department of the Treasury’s failure
to provide reports to Congress in accordance with section 721(k)
of the Defense Production Act of 1950, as amended in 1988 and
in 1992. Specifically, we (1) determined the roles of all parties
involved in preparing and issuing the quadrennial reports to
Congress; (2) determined the applicable due dates for the required
periodic report filings; (3) identified all reports prepared and filed,
including when the reports were filed and by whom; and
(4) obtained and reviewed copies of unclassified versions of these
reports with any applicable transmittals. To determine why the
reports were not filed, we conducted interviews and reviewed
office correspondence, e-mails, and all other documentation
retained regarding the filing of the reports.

We reviewed background information including laws, regulations,
and executive orders applicable to quadrennial report filings.

We requested from Treasury all documentation related to the
quadrennial report filings from 1994 to 2006, and reviewed the
documentation received from Treasury in response. These
documents included the unclassified quadrennial reports prepared in
1994 and 2006 and office correspondence regarding the filing of
reports.

We interviewed officials within Treasury’s Office of International
Affairs in Washington, D.C., because that office was responsible
for providing the reports to Congress. We also interviewed
Treasury officials within the Office of Performance Budgeting,
Office of General Counsel, and Office of Executive Secretary
regarding how Treasury ensures that regulatory requirements, such
as mandated reporting, are met.

In addition to Treasury officials and staff, we interviewed (1) a
former Special Assistant to the President and Senior Director for
International Trade and Investment, National Security
Council/National Economic Council, about communications with
Treasury regarding the quadrennial report requirements and

Review of Treasury’s Failure to Provide Congress Required        Page 18
Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
and Industrial Espionage Activity Involving U.S. Critical
Technology Companies (OIG-08-031)
Appendix 1
Objective, Scope, and Methodology




direction provided to Treasury regarding preparation of the report;
(2) a Central Intelligence Agency official with responsibility for
helping Treasury prepare the quadrennial report, about his
communication with Treasury and participation in drafting the
quadrennial report; and (3) a Congressional Research Service
official involved in requesting information about the quadrennial
reports in 2005, regarding the reasons for the information requests.

We reviewed all information that Treasury provided and stated was
available regarding the report filings. This documentation included
e-mail correspondence, report filings, and various memoranda. With
regard to the 1998 draft memorandum in which Treasury discussed
preparation of the second quadrennial report with a former Special
Assistant to the President, we requested but did not receive the
transmittal letter evidencing that the memorandum had been
issued.

Regarding the quadrennial report that Treasury was required to
produce in 2002, officials in the Office of Investment Security
informed us that there was no documentation to provide to us
because they did not pursue the matter during that year.

All officials at the Office of International Affairs involved with the
quadrennial filings represented to us in writing that they had
provided all related materials for our review. There were no other
audit procedures that we could perform to ensure that the
documentation provided was complete.

Our conclusions as to the facts and circumstances surrounding the
filing of the quadrennial reports were based on interviews with
officials from Treasury and the Central Intelligence Agency, as well
as on the limited documentation we received from these entities.

We performed our fieldwork from November 2007 to March 2008
in accordance with generally accepted government auditing
standards.




Review of Treasury’s Failure to Provide Congress Required        Page 19
Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
and Industrial Espionage Activity Involving U.S. Critical
Technology Companies (OIG-08-031)
Appendix 2
Timeline of Significant Events




 Date                       Event
 September 8,1950           The Defense Production Act (DPA) of 1950 is
                            enacted. The act authorized governmental activities
                            in various areas, including requisition of property for
                            national defense, expansion of productive capacity,
                            establishment of contract priorities, and materials
                            allocation designed to aid the national defense. The
                            authority to suspend or prohibit foreign acquisition
                            that threatens national security was not added until
                            the Omnibus Trade and Competitiveness Act was
                            enacted in 1988.
 May 7, 1975                Executive Order (EO) 11,858, Foreign Investment in
                            United States is issued. This EO established the
                            Committee on Foreign Investment in the United
                            States (CFIUS), with the Secretary of the Treasury
                            as chairman. The responsibility of CFIUS is to
                            examine and monitor the impact of foreign
                            investment in the United States.
 Aug. 23, 1988              The Omnibus Trade and Competitiveness Act
                            (section 5021) is enacted (Pub. L. No. 100-418).
                            The act added section 721 (50 U.S.C. app. § 2170),
                            also known as the Exon-Florio provision, to DPA,
                            giving the President authority to suspend or prohibit
                            any foreign acquisition, merger, or takeover of a
                            U.S. corporation that is determined to threaten
                            national security. If the President decides to suspend
                            or prohibit a transaction, the President is required to
                            provide Congress a written report of the action that
                            the President intends to take, including a detailed
                            explanation of the findings.
 Dec. 27, 1988              EO 12,661, Implementing the Omnibus Trade and
                            Competitiveness Act of 1988 and Related Internal
                            Trade Matters, is issued. The President’s
                            responsibilities under section 721 of DPA are
                            assigned to CFIUS, specifically, the duty to conduct
                            reviews, undertake investigations, and make
                            recommendations on foreign acquisition of U.S.
                            companies. This order amended EO 11,858.
 November 21, 1991          31 CFR Part 800 is promulgated. These regulations
                            implement section 721 and inform CFIUS, the
                            President, and parties regarding procedures for
                            reviewing mergers, acquisitions, and takeovers by
                            foreign entities.




Review of Treasury’s Failure to Provide Congress Required                   Page 20
Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
and Industrial Espionage Activity Involving U.S. Critical
Technology Companies (OIG-08-031)
Appendix 2
Timeline of Significant Events




 Date                       Event
 Oct. 23, 1992              National Defense Authorization Act for FY 1993
                            (Pub. L. No. 102-484) is enacted amending DPA.
                            The act requires the President to provide Congress a
                            report of the President’s decision to prohibit or not
                            prohibit a foreign acquisition, merger, or takeover of
                            a U.S. corporation. Prior to this act, the President
                            only had to submit a report when deciding to
                            prohibit such transactions. The act also required
                            mandatory investigations of transactions that could
                            result in a foreign government’s gaining control of a
                            U.S. company that could affect U.S. national
                            security.
 October 28, 1992           Defense Production Act Amendments of 1992 (Pub.
                            L. No. 102-558) is enacted. Section 721 of DPA is
                            amended by adding the following new subsection:
                            (k) Quadrennial Report. “…President and such
                            agencies as the President shall designate shall
                            complete and furnish to Congress, not later than 1
                            year after date of enactment of the section and upon
                            the expiration of every 4 years thereafter.” The
                            report is to evaluate whether foreign countries have
                            concerted strategies to acquire U.S. companies in
                            the area of critical technologies and to address the
                            scope of industrial espionage activities in the
                            country. Critical technologies are defined as “critical
                            components or critical technology items essential to
                            national defense.”
 September 3, 1993          EO 12,860, Adding Members to the Committee on
                            Foreign Investment in the United States, is issued.
                            Several members are added to CFIUS: the Director of
                            the Office of Science and Technology Policy, the
                            Assistant to the President for National Security
                            Affairs, and the Assistant to the President for
                            Economic Policy.
 June 3, 1994               EO 12,919, National Defense Industrial Resources
                            Preparedness, is issued. Among many delegations
                            involving a number of agencies, the Secretary of the
                            Treasury is assigned responsibility (in cooperation
                            with several other Executive branch agencies) to
                            complete and furnish a report to the President and
                            Congress in accordance with the requirements of
                            section 721(k) of DPA concerning foreign efforts to
                            acquire U.S. companies involved in research,
                            development, or production of critical technologies
                            and industrial espionage activities directed by foreign
                            governments against private U.S. companies.

Review of Treasury’s Failure to Provide Congress Required                   Page 21
Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
and Industrial Espionage Activity Involving U.S. Critical
Technology Companies (OIG-08-031)
Appendix 2
Timeline of Significant Events




 Date                       Event
 August 30, 1994            The National Economic Council sends the first report
                            (classified and unclassified) to Congress.
 1998                       Treasury’s Assistant Secretary for International
                            Affairs drafts a memorandum to the Special
                            Assistant to the President and Senior Director for
                            International Trade and Investment, National
                            Security Council/National Economic Counsel, to
                            explain that CIA and Commerce data were not
                            available for the report.

                            Treasury did not produce the required quadrennial
                            report.
 2002                       This was the year that the next report to Congress
                            was due; however, as Treasury officials recalled,
                            again CIA and Commerce data were not available for
                            the report.

                            Treasury did not produce the required quadrennial
                            report.
 September 28, 2005         The Government Accountability Office (GAO) issues
                            Defense Trade: Enhancements to the Implementation
                            of Exon-Florio Could Strengthen the Law’s
                            Effectiveness, (GAO-05-686). GAO found the CFIUS
                            process for reviewing foreign investments could be
                            improved. To provide more transparency and
                            congressional oversight, GAO said that Congress
                            should revisit the criterion for reporting
                            circumstances surrounding cases to Congress. For
                            example, GAO said that Congress could require an
                            annual report on all transactions that occurred during
                            each year.
 October 6, 2005, and       A hearing is held before the Senate Committee on
 continued on               Banking, Housing, and Urban Affairs to review the
 October 20, 2005           CFIUS process for implementing the Exon-Florio
                            amendment. GAO testified that despite the 1992
                            requirement for a report on foreign acquisition
                            strategies every 4 years, only one report was issued,
                            in 1994. In response to a written question by the
                            Committee member asking for an explanation of the
                            failure of CFIUS to produce the quadrennial report
                            after 1993, Treasury stated, in part, that one report
                            was submitted in 1994 and other reports have not
                            since been produced. Treasury also noted that the
                            information required related to industrial espionage
                            had been provided through annual reports prepared


Review of Treasury’s Failure to Provide Congress Required                  Page 22
Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
and Industrial Espionage Activity Involving U.S. Critical
Technology Companies (OIG-08-031)
Appendix 2
Timeline of Significant Events




 Date                       Event
                            by the Office of the National Counterintelligence
                            Executive. Treasury further stated that the
                            Administration planned to provide a comprehensive
                            report in 2006. Treasury’s response, however, did
                            not identify the reasons why the quadrennial reports
                            were not prepared.
 May 17, 2006               A hearing is held before the House Financial Services
                            Subcommittee on Domestic and International
                            Monetary Policy, Trade and Technology on H.R.
                            5337, the National Security Foreign Investment
                            Reform and Strengthened Transparency Act of
                            2006. The Treasury Assistant Secretary for
                            International Affairs testified on ways to improve the
                            CFIUS process, particularly communication with
                            Congress and political accountability. The Treasury
                            official stated that Treasury is now promptly
                            notifying Congress of every review upon its
                            completion and has committed to conducting
                            quarterly briefings for Congress on CFIUS matters.
                            He said that the Administration was also preparing
                            the 2006 quadrennial report and that Treasury
                            regretted that a quadrennial report had not been
                            prepared since 1994.
 Dec. 28, 2006              Treasury/CFIUS completes Report on Whether
                            Foreign Governments or Companies Have a
                            Coordinated Strategy to Acquire U.S. Critical
                            Technology Companies and Whether Foreign
                            Governments Use Espionage Activities to Obtain
                            Commercial U.S. Critical Technology Companies and
                            Whether Foreign Governments Use Espionage
                            Activities to Obtain Commercial U.S. Critical
                            Technology Secrets. The report cites section 721(k)
                            of DPA. According to Treasury officials, this
                            classified report was transmitted to Congress in
                            January 2007. Treasury transmitted the unclassified
                            version to Congress in September 2007.
 Dec. 29, 2006              Memorandum on the Assignment of Function Under
                            Section 721(k) of the Defense Production Act of
                            1950 is signed by the President and issued. It
                            appears in the Federal Register on Jan. 5, 2007. In
                            the memorandum, the President assigned to the
                            Secretary of the Treasury “the function of the
                            President under section 721(k) of the Defense
                            Production Act of 1950 (50 U.S.C. App. 2170(k)),
                            for purposes of submitting such report by February
                            28, 2007.” This memorandum was unnecessary

Review of Treasury’s Failure to Provide Congress Required                  Page 23
Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
and Industrial Espionage Activity Involving U.S. Critical
Technology Companies (OIG-08-031)
Appendix 2
Timeline of Significant Events




 Date                        Event
                             because Treasury was already assigned this
                             responsibility in EO 12,919 dated June 3, 1994.
 January 8, 2007             Treasury transmits the 2006 classified quadrennial
                             report to Congress.
 July 26, 2007               Foreign Investment and National Security Act of
                             2007 (Pub. L. No. 110-049) is enacted. This act
                             made changes to the foreign investment review
                             process contained in section 721 of DPA and
                             provides for increased oversight by Congress. It
                             requires CFIUS to submit annual reports to Congress
                             before July 31 of each year on all of the reviews and
                             investigations of covered transaction completed
                             during the year. The Treasury Inspector General is
                             required to investigate and submit a report to
                             Congress concerning any failure of Treasury to
                             comply with the reporting requirements of section
                             721(k) of DPA.
 September 2007              Treasury transmits the 2006 unclassified quadrennial
                             report to Congress.
 January 23, 2008            Further Amendment of EO 11,858, Concerning
                             Foreign Investment in United States is issued. This
                             EO implemented FINSA.
 Source: OIG analysis of Treasury data and applicable laws and regulation.




Review of Treasury’s Failure to Provide Congress Required                    Page 24
Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
and Industrial Espionage Activity Involving U.S. Critical
Technology Companies (OIG-08-031)
Appendix 3
Management Response




Review of Treasury’s Failure to Provide Congress Required      Page 25
Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
and Industrial Espionage Activity Involving U.S. Critical
Technology Companies (OIG-08-031)
Appendix 3
Management Response




Review of Treasury’s Failure to Provide Congress Required      Page 26
Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
and Industrial Espionage Activity Involving U.S. Critical
Technology Companies (OIG-08-031)
Appendix 4
Major Contributors to This Report




Office of Inspector General

Sharon Torosian, Audit Manager
Mark Ossinger, Audit Manager
Jenny Hu, Auditor
Cynthia Milanez, Referencer




Review of Treasury’s Failure to Provide Congress Required      Page 27
Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
and Industrial Espionage Activity Involving U.S. Critical
Technology Companies (OIG-08-031)
Appendix 5
Report Distribution




The Department of the Treasury

Under Secretary for International Affairs
Assistant Secretary, International Affairs
Deputy Assistant Secretary, Investment Security
Office of Strategic Planning and Performance Management
Office of Accounting and Internal Control

Office of Management and Budget

OIG Budget Examiner

United States Congress

Senate

Committee     on   Foreign Relations
Committee     on   Banking, Housing, and Urban Affairs
Committee     on   Commerce, Science, and Transportation
Committee     on   Finance

House of Representatives

Committee on Foreign Affairs
Committee on Financial Services
Committee on Energy and Commerce




Review of Treasury’s Failure to Provide Congress Required      Page 28
Quadrennial Reports in 1998 and 2002 on Foreign Acquisitions
and Industrial Espionage Activity Involving U.S. Critical
Technology Companies (OIG-08-031)
